<html>
<title> - ENHANCING AMERICAN COMPETITIVENESS THROUGH SKILLED IMMIGRATION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
     ENHANCING AMERICAN COMPETITIVENESS THROUGH SKILLED IMMIGRATION 

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    IMMIGRATION AND BORDER SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 5, 2013

                               __________

                           Serial No. 113-15

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

79-724 PDF                       WASHINGTON : 2013 


                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
HOWARD COBLE, North Carolina         ROBERT C. ``BOBBY'' SCOTT, 
LAMAR SMITH, Texas                       Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
SPENCER BACHUS, Alabama              ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO R. PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     JUDY CHU, California
TED POE, Texas                       TED DEUTCH, Florida
JASON CHAFFETZ, Utah                 LUIS V. GUTIERREZ, Illinois
TOM MARINO, Pennsylvania             KAREN BASS, California
TREY GOWDY, South Carolina           CEDRIC RICHMOND, Louisiana
MARK AMODEI, Nevada                  SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 JOE GARCIA, Florida
BLAKE FARENTHOLD, Texas              HAKEEM JEFFRIES, New York
GEORGE HOLDING, North Carolina
DOUG COLLINS, Georgia
RON DeSANTIS, Florida
KEITH ROTHFUS, Pennsylvania

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
                                 ------                                

            Subcommittee on Immigration and Border Security

                  TREY GOWDY, South Carolina, Chairman

                     TED POE, Texas, Vice-Chairman

LAMAR SMITH, Texas                   ZOE LOFGREN, California
STEVE KING, Iowa                     SHEILA JACKSON LEE, Texas
JIM JORDAN, Ohio                     LUIS V. GUTIERREZ, Illinois
MARK AMODEI, Nevada                  JOE GARCIA, Florida
RAUL LABRADOR, Idaho                 PEDRO R. PIERLUISI, Puerto Rico
GEORGE HOLDING, North Carolina

                     George Fishman, Chief Counsel

                   David Shahoulian, Minority Counsel



                            C O N T E N T S

                              ----------                              

                             MARCH 5, 2013

                                                                   Page

                           OPENING STATEMENTS

The Honorable Trey Gowdy, a Representative in Congress from the 
  State of South Carolina, and Chairman, Subcommittee on 
  Immigration and Border Security................................     1
The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Ranking Member, Subcommittee on 
  Immigration and Border Security................................     3
The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary     4

                               WITNESSES

Bruce A. Morrison, Chairman, Morrison Public Affairs Group, on 
  behalf of IEEE--USA
  Oral Testimony.................................................     6
  Prepared Statement.............................................     9
Dean C. Garfield, President & CEO, Information Technology 
  Industry Council (ITI)
  Oral Testimony.................................................    19
  Prepared Statement.............................................    22
Deepak Kamra, General Partner, Canaan Partners
  Oral Testimony.................................................    28
  Prepared Statement.............................................    31
Benjamin Johnson, Executive Director, American Immigration 
  Council
  Oral Testimony.................................................    40
  Prepared Statement.............................................    42

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Trey Gowdy, a Representative 
  in Congress from the State of South Carolina, and Chairman, 
  Subcommittee on Immigration and Border Security................    78
Prepared Statement of the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Ranking Member, 
  Subcommittee on Immigration and Border Security................    84
Prepared Statement of the Honorable Bob Goodlatte, a 
  Representative in Congress from the State of Virginia, and 
  Chairman, Committee on the Judiciary...........................    85


     ENHANCING AMERICAN COMPETITIVENESS THROUGH SKILLED IMMIGRATION

                              ----------                              


                         TUESDAY, MARCH 5, 2013

                        House of Representatives

            Subcommittee on Immigration and Border Security

                       Committee on the Judiciary

                            Washington, DC.

    The Subcommittee met, pursuant to call, at 10 a.m., in room 
2141, Rayburn House Office Building, the Honorable Trey Gowdy 
(Chairman of the Subcommittee) presiding.
    Present: Representatives Gowdy, Goodlatte, Smith, Jordan, 
Amodei, Labrador, Holding, Lofgren, Jackson Lee, Gutierrez, and 
Garcia.
    Staff Present: (Majority) George Fishman, Chief Counsel; 
Allison Halataei, Parlimentarian & General Counsel; Graham 
Owens, Clerk; and (Minority) David Shahoulian, Minority 
Counsel.
    Mr. Gowdy. Good morning and welcome to the hearing on 
Enhancing American Competitiveness Through Skilled Immigration. 
The Subcommittee on Immigration and Border Security will come 
to order.
    Without objection, the Chair is authorized to declare 
recesses of the Committee at any time.
    On behalf of all of us, we welcome our witnesses, and I 
will introduce them in short order.
    The American dream is in large part inextricably 
intertwined with our economic competitiveness. It is the 
Subcommittee's hope that we ensure our immigration system helps 
hone, rather than blunt, that competitive advantage. A single 
visionary newcomer can start a business, generating thousands 
of jobs. It is vital that we keep those jobs here so our fellow 
citizens can experience the most basic of all family values, 
which is a job.
    Nearly half of America's top up and coming venture capital 
backed companies were started by immigrants. To pick just one, 
Glaukos Corporation has developed a promising new treatment to 
glaucoma. It was founded by three men, including a Norwegian 
and an Iranian immigrant. Today's hearing will investigate how 
we can build a better immigration system and, therefore, 
experience more entrepreneurial success, fueled in no small 
part by the ideas and innovation of immigrants.
    The Bureau of Labor Statistics projects employment in 
computer and information technology occupations will grow by 22 
percent through 2020. It also projects the fastest employment 
growth will be in occupations requiring doctorate, 
professional, or masters degrees. Immigrants play a role in 
filling these jobs. Foreign students comprise about 37 percent 
of the graduates of science, technology, and engineering and 
mathematics, commonly known as STEM, master's and doctoral 
programs at U.S. universities. We must take care that our 
immigration system ensures the best and brightest of these 
foreign students decide to make their careers and their homes 
in America. The typical path has immigrant scientists and 
engineers first studying in the U.S. on student visas, then 
working for American companies through optional practical 
training, or H-1B temporary visas, and then being sponsored by 
their employers for green cards.
    Today's hearing will investigate whether U.S. immigration 
policy needlessly blocks this path. At the same time, we must 
encourage our children and grandchildren to study in STEM 
fields. U.S. students need fair access to our institutions of 
higher education. Some universities today, in today's tough 
fiscal climate, are actually considering giving preference to 
foreign full tuition paying students over our own students. 
Needless to say, that is unacceptable.
    Secondly, U.S. students need to know that viable life-
style-friendly long-term careers will follow from the hard work 
of studying technical fields in college. Stories still abound 
about American workers being laid off and replaced with H-1B 
workers, even being forced to train their replacements. 
American computer scientists face an often brutal job market 
after they turn 35. Some argue the H-1B visa program 
facilitates this preference for younger workers. The GAO found 
that while 38 percent of American systems analysts, 
programmers, and other computer-related workers are under the 
age of 35, 83 percent of the H-1B workers in these occupations 
are under 35.
    While the H-1B program has safeguards to protect the 
interests of American workers, are these safeguards working as 
they should?
    The GAO found H-1B employers categorize over half of their 
H-1B workers as entry level, which is defined as performing 
routine tasks that require limited if any exercise of judgment. 
And only 6 percent is fully competent. The dollar differences 
are not trivial. In Greenville, South Carolina, the H-1B 
program's prevailing wage for an electrical engineer is $55,890 
for an entry-level worker, and $88,920 for a fully competent 
worker. Are experienced Americans losing out?
    Today's hearing and subsequent ones will answer these 
questions factually. It is encouraging to note the median 
salary of H-1B workers approved for initial employment in 
computer-related jobs increased from $50,000 in 2005 to 64,000 
in 2011.
    In summary, our skilled immigration policies should meet 
three goals. It should help ensure our economic growth, it 
should ensure that we attract to keep the best and brightest 
from all around the world, and it should nurture the careers of 
American students and workers who choose to study and work in 
these essential fields.
    I look forward to today's hearing. Again, I welcome our 
witnesses. And with that, I would recognize the Ranking Member 
of the Subcommittee, the gentlelady from California, Ms. 
Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman. All of us agree that 
America is the greatest country on Earth. We attribute this 
success to our unparalleled freedoms, our abundant natural 
resources. But there is one critical factor that can't be 
forgotten: Immigration. That the U.S. is the strongest economic 
and military power on Earth is no accident. It was earned by 
opening our arms to the world's political and intellectual 
refugees by giving them the freedom to take risks and own their 
own accomplishments and by fostering a national identity that 
welcomes strangers to become as American as the rest of us.
    For years, we have been on the winning side of the global 
brain drain, but today, we find ourselves on the other side of 
the drain. We used to invite the brightest minds in the world 
to come make this their home and become Americans with us, now 
we turn them away. We turn away advanced degree graduates in 
STEM from our best universities. We turn away entrepreneurs who 
want to start businesses and create jobs for our constituents. 
We turn away medical professionals willing to fill gaps in 
healthcare shortage areas. Rather than harness their potential 
as our country has done for over 2 centuries, we now tell these 
people they are not welcome. Worse yet, in this increasingly 
global economy, we tell them to go home and compete against us 
from overseas. The result has been a reverse brain drain, and 
it is not good for our country.
    Immigrant students and entrepreneurs have had a profound 
impact on the U.S. economy and job creation in America. 
Immigrants were responsible for one-quarter of all engineering 
and technology startups created in the United States between 
1995 and 2005. The vast majority of these immigrants had 
advanced STEM degrees, mainly from U.S. universities. More than 
half of the startups in Silicon Valley, my district, had 
immigrant founders. Immigrants were named as inventors or co-
inventors in one-quarter of international patent applications 
filed in the United States in 2006. Due partly to immigration, 
our country, which is 5 percent of the world's population, 
employs one-third of the world's scientific and engineering 
researchers, accounts for 40 percent of all R&D spending, and 
publishes 35 percent of all science and engineering articles. 
This leadership in science and technology, according to the 
National Academies, has translated into rising standards of 
living for all Americans, with technology improvements 
accounting for up to half of GDP growth and at least two-thirds 
of productivity growth since 1946. This is because, according 
to the Academies, while only 4 percent of the Nation's 
workforce is composed of scientists and engineers, this group 
disproportionately creates jobs for the other 96 percent.
    A recent report by the Partnership for a New American 
Economy, a bipartisan group of businesses founded by New York 
City Mayor Michael Bloomberg and News Corporation's CEO Rupert 
Murdoch found that more than 40 percent of Fortune 500 
companies were founded by immigrants or their children. These 
companies currently generate a staggering $4.2 trillion in 
revenue each year. All of these statistics make it clear that 
we must find a way to keep more of these minds in America. In 
2005, at the request of Congress, the National Academies issued 
a very sobering report on the country's eroding leadership, 
economic leadership in science and technology. The Academies 
reviewed trends across the globe and found that due in part to 
restrictive immigration policies, the scientific and 
technological building blocks critical to our economic 
leadership are eroding at a time when many other Nations are 
gathering strength. According to the report, although many 
people assume the United States will always be a world leader 
in science and technology, this may not continue to be the case 
inasmuch as great minds and ideas exist throughout the world. 
They said, quote, we fear the abruptness with which a lead in 
science and technology can be lost and the difficulty of 
recovering a lead once lost if indeed it can be regained at 
all, unquote.
    America's greatest advantage in the global economy is our 
unique ability to innovate and incubate new ideas and 
technologies. This history of innovation was built both by 
harnessing native-born homegrown talent and fostering and 
welcoming the best and brightest immigrants from around the 
world. While we focus on the need to welcome those earning 
graduate degrees in STEM fields from America's greatest 
universities, it is also important to remember that many of our 
tech innovators did not receive their immigration status based 
on their degrees but because they were family-based immigrants 
or refugees--think Google, think Yahoo. So we need to reform 
our broken immigration system. I believe that we can do the 
whole thing when we work in good faith together in a bipartisan 
manner.
    And I yield back, Mr. Chairman.
    Mr. Gowdy. Thank the gentlelady from California.
    The Chair would now recognize the Chairman of the full 
Committee, the gentleman from Virginia, Mr. Goodlatte.
    Mr. Goodlatte. Mr. Chairman, thank you for holding this 
hearing.
    The contributions of highly skilled and educated immigrants 
to the United States are well documented. Seventy-six percent 
of the patents awarded to our top patent-producing universities 
had at least one foreign-born inventor. According to a recent 
report, these foreign-born inventors played especially large 
roles in cutting-edge fields like semiconductor device 
manufacturing, information technology, pulse or digital 
communications, pharmaceutical drugs or drug compounds, and 
optics. A study by the American Enterprise Institute and the 
Partnership for a New American Economy found that an additional 
100 immigrants with advanced STEM degrees from U.S. 
universities is associated with an additional 262 jobs for 
native Americans. The study also found that immigrants with 
advanced degrees pay over $22,000 a year in taxes yet their 
families receive less than $2,300 in government benefits.
    The United States has the most generous legal immigration 
system in the world, providing permanent residence to over a 
million immigrants a year. Yet how many of these immigrants do 
we select on the basis of the education and skills they can 
bring to America? Only 12 percent; barely more than one out of 
10, and that is including the immigrants' family members. Given 
the outstanding track record of immigrants in founding some of 
our most successful companies, how many immigrants do we select 
on the basis of their entrepreneurial talents? Less than 1 
percent. And that is only if they already have the hundreds of 
thousands of dollars needed to participate in the investor visa 
program. Does any of this make sense, given the intense 
international economic competition that America faces? Does any 
of this make sense given that many talented foreign graduates 
of our best universities are giving up hope of getting a green 
card and are packing up and moving home to work for our 
competitors? Does any of this make sense given that Indian 
nationals with advanced degrees sought out by American industry 
have to wait over 8 years for a green card? Does any of this 
make sense, given that Australia, the United Kingdom, and 
Canada each select over 60 percent of immigrants on the basis 
of skills and education?
    The answer is, clearly not. It is as if we purposely added 
weights to handicap our horse in order to give our competitors 
a better shot at the winner's circle. This just doesn't make 
sense as national economic policy.
    The House of Representatives acted last year to rechart our 
course. We voted by over a hundred vote margin to pass 
legislation by former Chairman Smith that redirected 50,000 or 
so green cards a year from winners of the diversity visa 
lottery toward foreign graduates graduating from our 
universities with advanced degrees in STEM fields. That bill 
would have made all Americans winners. Unfortunately, at the 
direction of the White House, the bill died in the Senate. In 
this new Congress, we can rechart our Nation's course anew. We 
should look at all aspects of high-skilled immigration policy. 
We can look for ways to improve our temporary visa programs for 
skilled workers, such as H-1B and L visas. We can look for ways 
to improve our temporary visa program for entrepreneurs, the E-
2 program. We can look for ways to offer green cards to 
aspiring entrepreneurs that don't demand that they themselves 
be rich but that instead rely on the judgment of the venture 
capitalists who have funded them. We can look for ways to 
reduce the backlogs for second and third preference employment-
based green cards. And we can seek to help the United States 
retain more of the foreign students who graduate from our 
universities.
    Of course, at the same time, we need to ensure that 
whatever we do brightens rather than darkens the career 
prospects of American students and American workers. Even newly 
minted Ph.D.s are not immune to sometimes bleak employment 
prospects. But attracting the world's best and brightest is 
decidedly in the interest of all Americans. Just think of the 
incredible economic windfall that America experienced through 
the arrival of scientists fleeing Nazism in the 1930's and 
1940's. This was one of the factors that enabled the postwar 
economic boom. Today, talented individuals have many options 
worldwide as to where to relocate. America needs to regain its 
place as the number one destination for the world's best and 
brightest. That should be our goal.
    Thank you, Mr. Chairman.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Without objection, other Members' opening statements will 
be made part of the record. Now it is my pleasure to introduce 
our distinguished panel. I will introduce you en banc, and then 
I will recognize you individually. The lights mean what they 
traditionally mean in life: green means go, yellow means hurry 
up, red means try to conclude that thought if you are able to.
    First, Mr. Bruce Morrison is Chairman of the Morrison 
Public Affairs Group, which he founded in 2001. He is an expert 
on immigration policy and practice, and is an immigration 
consultant and lobbyist. Among other clients, he represents the 
IEEE-USA with respect to immigration policy advocacy; from 1983 
to 1991, Mr. Morrison represented the 3rd District of 
Connecticut in the United States House of Representatives. He 
also served on the Judiciary Committee, where he specialized in 
immigration. As Chairman of the Immigration Subcommittee from 
1989 to 1991, he was deeply involved in the passage of the 
Immigration Act of 1990. He holds a bachelor's degree in 
chemistry from MIT, a master's degree in organic chemistry from 
the University of Illinois, and he is a graduate of Yale Law 
School.
    Mr. Dean Garfield is President and CEO of the Information 
Technology Industry Council, a role he has held since 2008. Mr. 
Garfield has worked to foster a policy environment and embrace 
cutting-edge research game-changing technologies and national 
economic champions as central to the foundation for sustained 
job creation and growth. He received a joint J.D.-master's 
degree from New York University School of Law and the Woodrow 
Wilson School of Public Administration International Affairs at 
Princeton University. He is a Ford Rockefeller as well as a 
Root-Tilden-Snow scholar. He is a first-generation immigrant 
from Jamaica.
    Mr. Deepak Kamra--if I mispronounced your name, I 
apologize--has been a venture capitalist with Canaan Partners 
for 20 years. Canaan Partners is a global venture capital firm 
investing in early-stage technologies and healthcare companies. 
Mr. Kamra joined Canaan Partners in 1991, and has focused on 
investments in digital media and software. He led Canaan's 
early investment in such successful startups as DoubleClick, 
Match.com, Zoosk, and SuccessFactors. He received a B.A. from 
Carlton University and an M.B.A. from Harvard Business School. 
He is a first-generation immigrant from India.
    Mr. Benjamin Johnson is the Executive Director of the 
American Immigration Council in Washington, D.C., a nonprofit 
educational organization, which increases public understanding 
of immigration law and policy and the role of immigration in 
American society. He earned a J.D. From the University of San 
Diego School of Law, and studied international comparative law 
at King's College in London.
    Welcome all of you. Mr. Morrison, I will recognize you 
first, then we will go from my left to right, your right to 
left. Mr. Morrison.

   TESTIMONY OF BRUCE A. MORRISON, CHAIRMAN, MORRISON PUBLIC 
             AFFAIRS GROUP, ON BEHALF OF IEEE--USA

    Mr. Morrison. Thank you, Mr. Chairman, and thank you, 
Ranking Member Lofgren, and the entire Subcommittee, for the 
opportunity to appear before you today on this important topic. 
I am here representing the IEEE-USA, which represents 206,000 
technology workers in the United States as part of the 
worldwide IEEE, which represents over 400,000 technology 
workers around the world. IEEE was founded by Thomas Edison and 
Alexander Graham Bell, no better provenance than that for 
technology and innovation. And the IEEE-USA is the organization 
that really represents the people who invented the Internet.
    The immigration policy of the United States needs to feed 
our competitiveness, as the opening statements of Members have 
said. This is very important. We at the IEEE understand what 
this is about because we represent the people who are the 
innovative workers in this sector. We represent people who are 
born in America and people who are foreign born and who have 
become Americans. So we are very much sensitive to the 
challenges that American workers face but also the 
opportunities that America has in terms of accepting skilled 
immigrants in order to join our workforce.
    Over 50 percent of the students in advanced degree programs 
in the United States in STEM are foreign born. So the reality 
is that when employers go to seek employees for the future they 
see a lot of foreign-born individuals who are highly skilled 
and are individuals they want to select as part of their 
workforce, along with their classmates who were born in 
America. We need to see to it that the immigration system is 
responsive to that reality.
    I don't think I need to convince this Committee that these 
individuals are job creators, that these individuals as 
innovators are helpful to our economy and to everyone in the 
country.
    But there are right ways and wrong ways to address this 
process. And we at IEEE-USA very much believe that the emphasis 
needs to be on green cards. Green cards are the way that 
individuals come from all over the world into our country and 
become Americans. I was privileged to serve on the Jordan 
Commission during the 1990's. And our Chairwoman, Congresswoman 
Barbara Jordan, was a great American leader. And I couldn't put 
it better than she did. She said, ``I would be the last person 
to claim that our Nation is perfect, but as a Nation we have a 
kind of perfection in us because our founding principle is 
universal. We are all created equal. People come from all over 
the world to take us up on that promise. It was immigration 
that drove us down the track to a broader and more perfect 
vision of ourselves. They became us. And who we are as in `We 
the people' changed and expanded to include new Americans.''
    We hear all the time that this is a Nation of immigrants. 
No one has ever said this is a Nation of guest workers. The 
fact is that immigrants are individuals who come and get green 
cards and have permanent rights in the United States. And that 
is the key challenge that this Subcommittee has in formulating 
a response to the demand for slots in our economy that are not 
being fully met by our current system.
    So you might ask, if that is the case, why all the clammer 
for more H-1B numbers rather than just being focused on green 
cards?
    First of all, our current green card system is hopelessly 
backlogged, as Chairman Goodlatte described. We need more green 
cards, both to address the backlog and to address the future 
demand. So using methods like recapture and other fashions of 
getting numbers immediately available and also increasing the 
numbers and relieving, for instance, STEM workers with advanced 
degrees from the burden of a cap on the number. We can't have 
too many of these individuals who are selected by American 
employers when there is fair competition between American 
graduates and foreign-born graduates.
    What green cards do is give those who are foreign born an 
equal right and autonomy in the economy to have the full 
freedom to have their market power to leave their job and not 
to be required to be in any way beholden to a particular 
employer. That works for both the employer and--that works for 
both the American worker and the foreign worker. That is the 
way to have a level playing field.
    I think that needs to be the focus of what the Subcommittee 
takes up. I have listed in my testimony a number of ways in 
which the delays that are currently in the system and that make 
the green card system not work for employers can be addressed. 
And the Idea Act that was introduced in 2011 has many of those 
same ideas.
    I thank the Chairman.
    Mr. Gowdy. Thank you, sir. And your full statement will be 
part of the record.
    [The prepared statement of Mr. Morrison follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                               __________

    Mr. Gowdy. Mr. Garfield.

  TESTIMONY OF DEAN C. GARFIELD, PRESIDENT & CEO, INFORMATION 
               TECHNOLOGY INDUSTRY COUNCIL (ITI)

    Mr. Garfield. Thank you. Mr. Chairman, Ranking Member 
Lofgren, Members of the Committee, on behalf of the Information 
Technology Council, the world's most innovative dynamic 
companies, I would like to thank you for convening this 
hearing. Thank you as well for your bipartisan leadership on 
this issue. It is our view that we have a once in a generation 
opportunity to reform and improve our immigration system in the 
best interest of our Nation, and we stand ready to work with 
you accomplish just that.
    We submitted testimony for the record. So rather than 
simply repeating it, I will reaffirm three points. One, 
improving and reforming our immigration system is in our 
national best interest. You mentioned the fact that I am a 
first-generation American citizen. I am. And as someone who 
spent 6 years separated from his parents as a result of our 
Byzantine immigration system, I understand the moral imperative 
for change. But I think there is an equally compelling economic 
argument to be made as well. Fortunately, the data supports 
that, and you went through some of them this morning, but some 
also bears repeating. The fact that 25 percent of our venture-
backed companies in this country were started by immigrants. In 
fact, in a recent study that looked at new companies and new 
businesses in the United States generally in 2011, it was also 
25 percent of new businesses that were started by immigrants. 
Seventy-six percent of the patents filed by our top 10 research 
institutions included immigrants. The fact that 40 percent of 
the Fortune 500 companies in this country were started by 
immigrants or their children. Moreover, those new businesses 
are creating the kinds of jobs that we want to have in this 
country. In a recent--and have the potential, in fact, to 
dramatically reduce our unemployment rate. In a recent study 
that was done by the Chamber of Commerce as well as ITI and the 
Partnership for a New American Economy, the unemployment rate 
for those who have an advanced degree in the science, 
technology, engineering, and math was a mere 2 percent. What 
would we give to have that number be the overall unemployment 
rate for our country.
    My second point is that in order to continue this virtuous 
cycle of immigrants coming to the United States, investing in 
our country, growing our economy, and creating new jobs, we 
have an imperative to improve our immigration system. I don't 
want to embarrass anyone, so I don't want anyone--I won't ask 
you to raise your hand if you are walking around with a 1990 
cellphone. But I suspect no one in this room is. If my dad were 
here, he would maybe proudly show off his satellite phone. But 
it would be quite unusual.
    In spite of that being the case, the U.S. is still 
showcasing a 1990's immigration system, with the same arbitrary 
numbers for high-skilled visas, both permanent and temporary, 
when our economy has grown by three times the size that it was 
in the 1990's. That is simply unacceptable.
    To the point that Mr. Morrison made on temporary visas, I 
will simply make one point before we get to the questions, 
which is, not every job is going to be a permanent job. There 
are instances where design team leaders or engineers are hired 
in the United States with the understanding that as the product 
being developed or the service being developed moves through 
the global supply chain, that position will move with the 
product or service.
    The fundamental question we have to ask ourselves is 
whether we want the United States to be the platform for 
innovation for the rest of the world. And my strong view is 
that we, in fact, do.
    And there are solutions for helping to advance and improve 
our immigration system in a way that redounds to the benefit of 
our economy. Two is the Immigration Innovation Act, I--Squared, 
which is moving through your body right now, as well as the 
startup visa 3.0. I think both of those stand a great chance if 
moved as a part of the broader immigration reform effort at 
dramatically improving the immigration system.
    The final point that I will make is that in addition to 
making sure that we are attracting the best and brightest, it 
is critical that we make sure that those who are born and bred 
here have an opportunity to take part in our 21st century 
economy. Our companies are actually spending billions, with a 
``b,'' billions of dollars in making sure that is in fact the 
case, through mentorship programs, launching initiatives like 
Change the Equation, or otherwise working to make sure that the 
benefits of an innovation economy is broadly available to our 
entire population. And we look forward to working with you to 
advance that generally.
    Thank you.
    Mr. Gowdy. Thank you, sir.
    [The prepared statement of Mr. Garfield follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                   __________

    Mr. Gowdy. Mr. Kamra.

          TESTIMONY OF DEEPAK KAMRA, GENERAL PARTNER, 
                        CANAAN PARTNERS

    Mr. Kamra. Thank you, Chairman Gowdy, Ranking Member 
Lofgren, and the Members of the Subcommittee. I appreciate this 
opportunity to discuss the important role that immigrant 
entrepreneurs play in U.S. job creation and to express support 
for a new startup visa category, which welcomes the best and 
brightest to our shores.
    Today's topic is very personal for me. I was an immigrant 
and I was an entrepreneur who helped start Aspect 
Communications. Aspect is a company headquartered in 
Massachusetts that launched a successful IPO and that today 
employs over 2,000 people. And I am now a venture capitalist 
with Canaan Partners in California, helping other entrepreneurs 
start new companies. I was born in India to parents who wanted 
a better life for our family. We were unable to come to the 
U.S., so they chose Canada, where I moved when I was 10 years 
old. After getting my undergraduate degree, I came to the U.S. 
to finish my studies. Upon graduating, I had a job opportunity 
at a California-based telecom company. But they were unable to 
secure a visa for me. Thus, I reluctantly returned to Canada 
for 3 years and eventually received an H-1 visa in 1983 and 
came back. While at this company, I had ideas for startup 
companies, but like immigrants with entrepreneurial 
aspirations, I was unable to leave my employer without putting 
my visa status at risk. It was only after I received my green 
card that I was able to leave my employer and help to launch my 
startup.
    At my venture capital firm, one in four companies we have 
invested in has an immigrant as part of the founding team. 
These founders hail from places like Russia, France, Iran, 
India, Germany, just to name a few. Collectively, they have 
contributed to literally thousands of jobs created by our 
firm's portfolio.
    I would like to thank the Chairman, Congresswoman Lofgren, 
and the Committee for recognizing that a startup visa category 
is vital to our country's future as it addresses two elements 
that have been critical in driving U.S. job creation, venture-
backed startup companies and immigrant entrepreneurs.
    We have heard a lot of statistics here today on the benefit 
that immigrant entrepreneurs have contributed. I will just add 
one more. Companies that were founded with venture capital 
accounted for 12 million jobs and over 3 trillion in revenues 
in the U.S. in 2010. That equals 11 percent of private U.S. 
employment and 21 percent of our country's GDP.
    Unfortunately, America is at higher risk for losing 
immigrant entrepreneurs to foreign countries. Our legal 
immigration policies have essentially sent a message to these 
talented people that we do not want them here. While the 
opportunity for starting a company in the U.S. remains far 
superior to any other country, options overseas are improving 
as governments realize the power of startups in their 
economies. Whereas 10 years ago America was the only choice, it 
has now become one of many choices, even though it is one of 
the first choices. And for a growing group of immigrants, 
America is not a choice at all. For me and other immigrant 
entrepreneurs, the H-1B visa is not a viable path for starting 
a company here. Entrepreneurs who are truly serious about 
building a new company must engage in that endeavor full time. 
Creating a startup visa category for foreign-born company 
founders would not only welcome the best and the brightest to 
our shores, but it would do so in a way that could be well 
managed and monitored if we consider a few parameters.
    Several proposals on this topic include threshold 
investment level as one parameter the entrepreneur must meet. 
In setting any threshold, it is important to understand that 
the cost of getting off the ground for technology companies has 
fallen considerably in recent years. Before pursuing venture 
capital investment, entrepreneurs today often seek much lower 
levels of funding support from angel investors. Yet these lower 
levels of seed funding do not in any way impact the promise of 
exponential growth for their companies.
    The required first round of funding for any startup visa 
should be set at a level to include the founders of these type 
of seed stage companies. Additionally, the ongoing monitoring 
of the entrepreneur's progress required for permanent residency 
must account for the high-risk nature of these companies. In 
the venture capital world, setbacks are a way of life on the 
path to ultimate success. So while we fully support the 
establishment of a monitoring process, it should allow for 
reasonable flexibility so company founders can learn lessons, 
regroup, and refocus when conditions change or new 
opportunities arise.
    I speak on behalf of myself and other immigrant 
entrepreneurs when I express how lucky we were to be given the 
opportunity to found and fund companies here in the U.S. But 
luck shouldn't have anything to do with it. America should not 
just be allowing these individuals to come to our country; we 
should be welcoming all of them.
    I appreciate the opportunity to be a part of this dialogue, 
and I look forward to answering any questions. Thank you.
    Mr. Gowdy. Thank you, sir.
    [The prepared statement of Mr. Kamra follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________
    Mr. Gowdy. Mr. Johnson.

  TESTIMONY OF BENJAMIN JOHNSON, EXECUTIVE DIRECTOR, AMERICAN 
                      IMMIGRATION COUNCIL

    Mr. Johnson. Thank you, Mr. Chairman, Ms. Lofgren, Members 
of Committee. Thank you for the opportunity to appear before 
you today and provide testimony on behalf of the American 
Immigration Council. We welcome this hearing as an opportunity 
to engage in a thoughtful conversation about the role that 
immigration can and should play in building a 21st century 
America, one that prospers and grows. Prosperity is a shared 
goal that unites us all, and it is an important lens through 
which to evaluate the vital role immigration plays in our 
economy today, as well as a need to fix our outdated 
immigration system.
    As we undertake reform to enhance prosperity through 
immigration, it is critical for us to recognize that skilled 
immigration encompasses a wide range of individuals with very 
different educational and occupational backgrounds. And it is 
important to realize that very often the best and brightest 
from around the world come to our shores not only through 
employment-based channels of immigration, but through family 
reunification, the admission of refugees, and asylees and can 
even be found within the current population of unauthorized 
workers. In other words, the quest for talent and the role of 
immigrants as job creators, entrepreneurs, and innovators is 
not an isolated enterprise, it is and should be an integral 
component of a broad-based, comprehensive immigration reform.
    So what are some additional facts to consider that we 
perhaps haven't heard? First and foremost, the overwhelming 
evidence finds that immigrants complement rather than compete 
with native-born workers, and their presence in our workforce 
has a positive impact on the wages of all workers. Much of this 
is due to the fact that we face skill gaps in many areas of our 
labor force. This can be seen in the fact that many STEM 
occupations have an unemployment rate that is more than half 
that of the national average. In some STEM occupations, the 
unemployment rate is at 1 or 2 percent. An analysis of job 
openings shows that in STEM fields there are often more 
vacancies than qualified applicants. In 2010, at the national 
level there were seven job openings in computer occupations for 
every graduate from a relevant computer major. In high-tech 
metro areas the demand was even greater, 25 to 1 in San 
Francisco, 19 to 1 in San Jose and nearly as high in places 
like Austin, Seattle, Washington, D.C., Des Moines, Charleston, 
and Charlotte. This widespread demand reflects the new reality 
that high-skilled immigration is not just important to the 
traditional high-tech areas like Silicon Valley, it is a 
critical issue in cities like San Antonio; Austin; and Houston, 
Texas; Greenville and Spartanburg, South Carolina; Boise, 
Idaho. All of these places and many more are building 
knowledge-based economies that need high-skilled workers. These 
communities understand the power of attracting and retaining 
skilled workers and industries and they know that immigrants 
are an important part of this equation. In Michigan, for 
example, only 6 percent of the State's population is foreign 
born, but those immigrants founded more than 30 percent of 
high-tech companies in the State over the past decade.
    This widespread recognition of the important role of 
immigrants in creating jobs and building communities has led to 
a surge in welcoming and recruitment campaigns in States like 
Michigan and cities like Dayton, Detroit, and St. Louis, where 
they are actively seeking to bring more immigrants into their 
communities. Unfortunately, these efforts are being frustrated 
by our immigration system. As it stands today, our current 
immigration system simply does not provide the right kinds or 
the right numbers of visas needed to respond to legitimate 
demands of our dynamic economy. High-skilled immigrants face 
years of waiting for an available visa and an endless array of 
bureaucratic delays. Immigrant entrepreneurs are almost 
completely left out of our current system. And immigrants who 
are enrolled in or graduates from U.S. universities are 
increasingly being recruited to other countries where 
immigration processes are far more welcoming. Reforms to our 
immigration system must reflect the needs of both workers and 
employers and should address both permanent and temporary 
channels of immigration. The goal must be to create a nimble 
and efficient system that responds in real time to the needs of 
the market by giving employers the ability to fill positions 
quickly with workers who are protected from exploitation. 
Reforms should also provide ample opportunities for immigrant 
entrepreneurs to spur innovation, job creation and economic 
growth for local communities and for the Nation as a whole.
    Moreover, these reforms should not be made at the expense 
of other priorities or other values. For instance, efforts to 
expand employment-based immigration by reducing existing 
family-based immigration are shortsighted and self-defeating. 
The fact is that family-based immigrants contribute to the 
economy, support working family members, and are important 
contributors to the phenomenon of immigrant entrepreneurship.
    For me the bottom line is this: The United States has 
created the most dynamic, the most flexible, most creative 
workforce the world has ever seen, and immigrants have always 
been a part of that equation. The importance of reforming our 
system, all aspects of it, are critical to our future 
prosperity. We owe it to our future to create a system that is 
good to business, good for workers, and good for families. 
Thank you.
    [The prepared statement of Mr. Johnson follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                               __________

    Mr. Gowdy. Thank all of the witnesses, and especially for 
adhering to the time limit. I wish I could give you an award 
for that, but it would probably break some law.
    So with that, I would recognize the Chairman of full 
Committee, the gentleman from Virginia, Mr. Goodlatte.
    Mr. Goodlatte. Thank you very much, Mr. Chairman.
    Mr. Morrison, welcome back to this Committee. I know you 
have served here before my time, and I have been here a while. 
And worked in immigration law, as have I and Congresswoman 
Lofgren. So we appreciate your contribution.
    My first question is the other primary, as I said in my 
opening remarks, the other primary immigrant-receiving 
countries, U.K., Canada, and Australia, select over 60 percent 
of their immigrants based on education and skills; the United 
States only 12 percent. And when you take out family members, 
only really 6 percent of our immigrant visas go to people with 
job skills needed in the U.S.
    Which type of immigration system do you believe makes the 
most sense?
    Mr. Morrison. I think the first priority is for us to have 
an adequate number of green cards for the employment-based 
system. And there are ways to do that, various ways to do that. 
And that is the priority. Now, the Congress will choose and 
this Committee will choose the extent to which the overall 
number of immigrants can be increased and what priorities ought 
to be set. Certainly, the IEEE-USA does not believe it is its 
job to say which other priorities ought to be lower. But we do 
believe and we have been willing to say that ultimately the 
country has to choose and that it ought not to shortchange its 
need for innovators and entrepreneurs in favor of doing 
something that might be less important to the country as a 
whole.
    Mr. Goodlatte. Thank you. My next question is, isn't it the 
case that most employers will want to give new workers a tryout 
period before committing to the significant resources necessary 
to sponsor them for a green card? And isn't it better for the 
national economy that we grant permanent residence to aliens 
who have already proven themselves on the job, and thus, 
doesn't the H-1B program work hand in hand with our green card 
programs in selecting the best recipients?
    Mr. Morrison. I think that there is a problem with that 
analysis. First, Mr. Garfield was very clear that there are 
temporary jobs in the H-1B program and it very much ought to be 
directed at temporary jobs. But when we are filling permanent 
jobs, the idea is that we are bringing people from abroad and 
we are asking them to come and choose America as the place 
where they are going to make their commitment and their 
investment.
    When we do that, the notion of a tryout, you know, come 
from Korea and spend 3 years or 5 years or 10 years trying 
out----
    Mr. Goodlatte. Let me interrupt because I have a limited 
amount of time. I don't disagree with that analysis. But when I 
practiced immigration law, the reality was that if you were in 
an American university and--or even in a foreign university, 
and a company wanted to hire you, the waiting list was so long 
for the permanent card that they wanted to get you on the H-1B 
so that they could then begin the process of applying for labor 
certification and then filing petition for an immigrant visa. 
And so the two really need to work hand in hand. There 
definitely are people who should come directly here for green 
cards, because they have the skills and qualify, and our 
current law allows that, and there are definitely people who 
come on an H-1B and do not intend to stay here permanently. But 
we also need to have these two programs mesh better than they 
do now in terms of those people who are going to come here 
temporarily, and if they do prove their worth, do get the 
opportunity from employers to move on to a green card.
    Mr. Morrison. The only thing I would say, Mr. Chairman, is 
that it is not necessary to have that delay in the green card 
system. And in 1990, we intended to change that. But, 
unfortunately, what happened in the 1990's, after I was gone, 
we didn't succeed in keeping that promise. And so we used the 
H-1B, we stuffed the green card system with huge numbers that 
created huge backlogs and we also did not deal with the delays 
inherent in the selection system and the processing system.
    That ought to change. The use of optional practical 
training for those people who are here, the use of other 
mechanisms to speed admission, including possibly fees, can be 
a way in which we don't play this tryout game. Because I think 
the tryout game is wrong.
    Mr. Goodlatte. Let me interrupt you because we can have 
further discussion about that. I want to get one more question 
in for Mr. Garfield. And that is, you mentioned in your 
testimony that Microsoft was forced to locate a product 
development facility in Vancouver because of the limitations of 
our immigration laws. Do you believe that other companies will 
make similar decisions unless our immigration laws are 
modernized? That is called a softball.
    Mr. Garfield. Yes, it is. The simple answer is yes, not 
only would they, but they are. In fact, I was in California 
just last week and met with a group of investors, and I am sure 
you guys have heard this story as well, who are literally 
looking at locating a cruise ship 12 miles off the coast of San 
Francisco so they can avoid this problem, because they would be 
in international waters.
    The interesting thing, which goes to the point about the 
complementary nature of the innovation ecosystem and the H-1B's 
and permanents, is that there are a significant number of U.S. 
citizens who are applying to be on that cruise ship because 
they know the benefit of partnering and working with immigrants 
and how it advances innovation generally. So I agree with you 
completely that it is a complementary system.
    Mr. Goodlatte. Thank you very much. Thank you, Mr. 
Chairman.
    Mr. Gowdy. Thank you, Mr. Chairman. The Chair would now 
recognize the gentlelady from California, Ms. Lofgren.
    Ms. Lofgren. Thank you very much, Mr. Chairman. And thanks 
to these excellent witnesses. I see here officials from the 
IEEE. It is good to see you here and thank you very much for 
your support of the Idea Act and the work that you did with me 
to hone and clarify the issues there.
    I think this is an important hearing. And I was mentioning 
to the Chairman, we can't tell from your testimony who is the 
majority witness and who is the minority witness, which is a 
good thing. I think we are all on the same page in wanting to 
make progress here. And the question is what are the details 
that need to be attended to.
    You know, I think back on my experience in this field. And 
I always remember a young fellow who had spent 4 years as an 
undergraduate at Harvard and then it took him 7 years, 
actually, to get his Ph.D. at Stanford. And he did a couple 
years of practical training. And then he had--was on an H-1B, 
and he got an extension. And he came to me and he said, you 
know, I have been here 20 years and I am still in limbo. And 
the question is, do I buy a house? Or do I go someplace else?
    And I said, well, just hold on. You know, we are going to 
fix this system.
    What we have now is not competitive. I mean, smart people 
like that fellow can go anywhere in the world. And he was 
getting offers from all over the world. So we need to think 
about how to be competitive for the brightest people in the 
world, how to allow them to become Americans with us.
    I think that the answer is green cards. That doesn't mean 
that there isn't a place for a reformed H-1B program. But I was 
noticing in the Chairman's opening statement his comment about 
Level 1 salaries versus the median in his area. Here is the 
information from Silicon Valley: Computer and information 
scientists, researchers, the Level 1 salary is $86,736. The 
median is $133,577.
    For electrical engineers, the Level 1 salary is $71,884, 
the median is a $105,102.
    So I think there is an issue with the Level 1 salaries that 
we addressed in the Idea Act. We need to make sure that when we 
are getting the best and brightest we are not actually 
undercutting American engineers and computer scientists and the 
like. And that goes both for the green card program as well as 
for the H-1B program.
    I do think--I guess I have a question for Mr. Garfield, I 
guess it is best directed to you, or Mr. Kamra. Microsoft came 
out with a white paper a number of months ago recommending 
increased fees that would be allocated toward education of 
American students in STEM fields. Do you think that that is 
something that should be part of what we look at in this 
package as we are providing greater green cards for the best 
and brightest? We want also to make science and technology 
education more accessible to American students. And not as an 
instead of providing the green cards but in addition to 
providing immigration reform. What do you think of that, Mr. 
Garfield?
    Mr. Garfield. I will answer a direct question with a direct 
response, which is yes. As a part of improving the entire 
system. So improved or increased fees by itself is not 
something that you will have a lot of support for. But as a 
part of not only attracting the best and the brightest but 
making sure that those who are born and bred here have access 
to the same opportunities through science, engineering, and 
math that others do, then yes. So the one thing that I would 
add is that there are a number of small businesses who have 
raised some concern about----
    Ms. Lofgren. Right.
    Mr. Garfield [continuing]. That fee. And I think those 
issues can be addressed.
    Ms. Lofgren. It should be tiered so we are not adversely 
impacting startups and small businesses. But for a company like 
Microsoft, they were the ones that suggested the fee. That 
would be something that they could support.
    Mr. Garfield. Correct.
    Ms. Lofgren. Let me ask--I am running out of time. But it 
seems to me all the times--I have so many technology companies 
in my district--that part of being competitive is also having a 
family immigration system that works. I mean, the number of 
times a company is called because their hotshot engineer is 
about to bail out because he has separated from his wife and 
kids for half a decade is also a problem. Do you see that as 
part of the solution here, Mr. Garfield and Mr. Kamra?
    Mr. Garfield. Yes, absolutely. I think Chairman Gowdy made 
the point that a lot of the iconic brands that were founded by 
immigrants, and certainly Mr. Johnson made the point as well, 
didn't come through the high-skilled program. So, yes.
    Mr. Kamra. Absolutely. I think a number of countries out 
there are competing with us for these kind of immigrants. And 
spouse, family visas are included as part of the program. And I 
think we need to be cognizant of that.
    Ms. Lofgren. Thank you very much, Mr. Chairman. My time has 
expired.
    Mr. Gowdy. Thank the gentlelady.
    The Chair would now recognize the gentleman from Nevada, 
Mr. Amodei.
    Mr. Amodei. Thank you, Mr. Chairman.
    I was going to ask if anybody thought things ought to stay 
the same. But I will take the lead from the Ranking Member, 
clearly nobody thinks the status quo is good. What I would just 
be interested in is, since you have all testified over a 
protracted period of time in your remarks, what do you 
attribute the fact that we are here again today talking about 
this issue? Why haven't we been able to get traction to make 
some level of changes? And I want to start in reverse order 
with you, Mr. Johnson. What do you attribute the fact that you 
are here urging change again in the face of pretty much 
inactivity?
    Mr. Johnson. Well, I think the political rhetoric around 
this issue, in general, is divisive and often destructive. And 
I think that makes, you know, charting a political course 
difficult. I think myths and misinformation abound in this 
area. And I think as a result of that oftentime we are driven 
more by bumper-sticker slogans rather than real solutions to a 
complex system.
    So I think the best thing that we can do is start focusing 
on the facts as we know them and challenge ourselves to be 
honest in this debate about the importance of immigration in 
building a stronger economy and a stronger society.
    Mr. Amodei. Thanks.
    Mr. Kamra.
    Mr. Kamra. Well, I have not been here before myself.
    Mr. Amodei. Welcome to the club.
    Mr. Kamra. Thank you. I will just note, since I am talking 
mostly about startup visas, it is getting more urgent every 
day. I came from Canada, even though I was born in India. Just 
last week, Canada announced a startup visa program. I would 
like to think that is not just because I am testifying; they're 
not trying to get me back. But it is--every country or every--
many countries that we compete with for these entrepreneurs are 
moving ahead of us.
    Mr. Amodei. Mr. Garfield.
    Mr. Garfield. I think----
    Mr. Amodei. Why are we here talking about this still?
    Mr. Garfield. I think it is in part what Mr. Johnson said. 
But I think it is also in part because there is--the previous 
attempts have focused on moving this issue where there is a 
broader recognition that this issue is one of the ones on which 
there is bipartisan agreement. And if we are going to deal with 
the broader immigration challenge, there is a desire to keep 
this issue as a part of resolving the broader puzzle. And so I 
think that has been part of the limitation in the approaches 
that have been taken.
    Mr. Amodei. So you haven't chosen to use the word 
``hostage''?
    Mr. Garfield. I would not use that word. I would use 
probably as an allure. It is one of those issues that will help 
build bipartisan support for broader immigration reform. So it 
is viewed as being an integral part of that broader effort.
    Mr. Amodei. Mr. Morrison, I know things were clicking right 
along until you left. So what do you attribute the inactivity 
after you left to?
    Mr. Morrison. Well, obviously, we had great success in 1990 
in a bipartisan effort that passed an important bill that was 
very relevant at that time. But times change and times pass.
    Unfortunately, many times our discussions about immigration 
don't focus on what the problem is in a particular sector of 
the economy and a particular part of immigration. So there are 
matters of the structure of our legal immigration system and 
there are matters of the fact that we have many unauthorized 
workers here. And those both need to be addressed. But they 
aren't the same problem. And they shouldn't be talked about as 
if they are. And sometimes in the politics of this issue, that 
is the way it has been discussed. And some people have found 
benefit in doing that in terms of stopping progress. But I 
think now the Congress seems to be very intent on progress, and 
that is very encouraging.
    Mr. Amodei. Thank you. I yield back, Mr. Chairman. Thank 
you.
    Mr. Gowdy. I thank the gentleman from Nevada.
    The Chair would now recognize the gentlelady from the State 
of Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. Thank you so very much. And I want to 
thank the Chairman and the Ranking Member again for these rapid 
series of hearings which I think are extremely important in 
creating a record.
    Just last week, we were in the Supreme Court on the issue 
of the Voting Rights Act. And one of the stellar moments was 
when the Court or the lawyers could not ignore the 15,000 pages 
of testimony that Congress had established of the relevance of 
the Section 5. And I am hoping that we create 15,000 pages of 
advocacy for immigration reform. And it looks like we are on 
the way to doing so.
    So I thank you, gentlemen, for your testimony.
    And I want to ask a question of all four of you. Taking a 
quote from Dr. Robert--well, it does not say Dr. Robert--D. 
Atkinson, President of the Information Technology and 
Innovation Foundation, just a quick quote that he has just 
indicated. ``The odds of high skilled passing without 
comprehensive, and that is immigration reform, is close to 
zero, and the odds of comprehensive immigration reform passing 
without high skilled is close to zero.''
    Mr. Morrison, do you agree to that?
    Mr. Morrison. I think the best thing that the Congress 
could do right now is to pass comprehensive reform that 
includes addressing both of the questions.
    Ms. Jackson Lee. Yes.
    Mr. Garfield.
    Mr. Garfield. Just as a political assessment, yes.
    Ms. Jackson Lee. Mr. Kamra?
    Mr. Kamra. Yes, I do agree.
    Ms. Jackson Lee. Mr. Johnson.
    Mr. Johnson. Yes.
    Ms. Jackson Lee. Thank you.
    Mr. Garfield, a lot of us are excited, there is some 
legislation going on regarding what we call a startup company 
visa. I am just going to lead into that. There are a lot of 
creative things that one can do around this need for high tech.
    And I want to raise two questions with you on this issue of 
the high skilled. I tend to not like to use ``low skilled,'' I 
like to use different skills for those who don't fall into that 
category. But I want to see where we are to answer the concerns 
of a lot of Americans on two issues. One, that under the 
pretense of a high-skilled visa, it would really be technicians 
who would come to the United States. Those technicians would 
lower the wages of our trained scientists and high-skilled 
engineers. Therefore, substituting them for high-skilled 
engineers, American engineers and scientists. And the other 
side of the coin is where is our focus on ensuring that the 
doors of opportunity are open to the--what we hope will be the 
emerging STEM-qualified Americans, particularly out of 
Hispanic-serving institutions and historically Black colleges.
    So there are two questions. One, would the H-1B visa lead 
to individuals being techs and getting lower salaries, 
undermining our scientists and mathematicians? And then where 
is the Information Technology Industry Council in working with 
historically Black colleges, Hispanic-serving colleges and 
building a base of opportunity for those young people?
    Mr. Garfield. Yes. To question number one, there is a fair 
amount of discussion earlier on the GAO study from 2011. And 
one of the conclusions from the GAO study is that there isn't 
any systematic evidence that controlling for experience and age 
of an undermining of the prevailing wage in any of the 
categories.
    The other data point from the study----
    Ms. Jackson Lee. You said it does not? I didn't hear you.
    Mr. Garfield. It does not. Does not.
    Is, which I think the Chairman pointed to, was the trend 
line over the last few years of increasing salaries even at 
that lower level. That is not to suggest that the H-1B program 
is perfect and cannot be improved. It is to suggest that it is 
not worthy of being thrown out. So we can improve it.
    As to the second question, it is a great question around 
accessibility. And one of the points I made earlier is that our 
companies are actually spending billions of dollars, whether 
through mentorship programs or improving teacher skills in 
STEM, to make sure that the 21st century workforce reflects the 
diversity of our entire country. And we intend to make it a 
continued point of focus.
    Ms. Jackson Lee. Thank you. Let me get another question in. 
Thank the Chairman. One of the issues of the earlier process 
that we used was again tying visas to s specific employer, 
therefore stymying the growth of our domestic STEM field. So 
what type of STEM visa program or system do you recommend that 
will not tie employees to a specific employer? Maybe I can get 
Mr. Johnson and Mr. Morrison.
    And I would just conclude by, if I could, Mr. Chairman, 
allow them to answer, just conclude and hope that my colleagues 
will join me in making sure that the language in any 
legislation that we support has the emphasis on diversifying 
this industry with access.
    Mr. Morrison on the question of the STEM visa.
    Mr. Gowdy. Mr. Morrison and Mr. Johnson, I am going to ask 
you to answer as efficiently as you can without doing a 
disservice to the issue.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Mr. Morrison. A STEM green card does not tie the employee 
to the employer. And by using that approach, you get all the 
autonomy and security for the employee. And the employer keeps 
the worker the same way the employer keeps an American worker: 
by paying well and giving good and challenging working 
conditions.
    Ms. Jackson Lee. Mr. Johnson.
    Mr. Johnson. I disagree. I think, in fact, portability 
issues with the H-1B visa, the H-1B visa is completely 
portable. The day that you get the H-1B, you can transfer 
employers. Not suggesting that we shouldn't try to strengthen 
that, particularly if the employee just needs to quit. I mean, 
grace periods after termination, I think, are really important.
    The portability and build being tied to an employer comes 
in when the employer files a green card petition. That is when 
you can't change jobs within that company, you can't change 
employers without having to get to the back of the line. So it 
seems to me that the real focus of reform and sort of tying 
employees to employers needs to come in that green card 
application process, as well as strengthening it in the H-1B 
context, but really the problem exists in the green card 
petition.
    Mr. Garfield. And I-Squared does attempt to resolve that 
issue and address that challenge.
    Mr. Gowdy. I thank the gentlelady from Texas.
    The Chair will now recognize the gentleman from North 
Carolina----
    Mr. Holding. Thank you.
    Mr. Gowdy [continuing]. Former U.S. Attorney, Mr. Holding.
    Mr. Holding. Thank you very much. Mr. Garfield, I continue 
to be fascinated with the concept of the fund for STEM 
education, which you touched on briefly and is in your 
submitted testimony, and would just ask you to elaborate that, 
on it a bit more and exactly how it would work and particular 
benefits that you think that it would draw.
    Mr. Garfield. Thank you. How it would work is subject to 
further discussion with the Members of this Committee. It is 
simply a recognition of the fact that we have been talking 
about, which is there is a significant skills gap in this 
country.
    The fastest growing areas of employment in this Nation are 
in the areas related to science, technology, engineering and 
math, and yet we all know that high school students graduating 
today, less than 30 percent of them are proficient in the 
sciences, less than 50 percent are proficient in math.
    And so a fund like the one we are talking about would give 
us an opportunity to begin addressing that so that we are 
dealing with our short-term skills issue through H-1B's or the 
visa program, but also taking steps to make sure that we are 
dealing with the longer term, more systematic skills challenges 
that exist in the country.
    Fundamentally, I think the bottom line is there is a lot of 
flexibility in how you could devise that program, and we are 
willing to work with the Members of this Committee to make sure 
it works effectively.
    Mr. Holding. Thank you. The issue we are talking about is 
near and dear to my heart because my wife is an immigrant and 
she came here because her father is a very highly skilled 
worker. He headed engineering and construction worldwide for a 
pharmaceutical firm in the United States and then headed one in 
Switzerland. And he has constantly remarked around the dining 
room table that the United States is one of the most difficult 
countries to get his teams into to build these facilities. He 
may want an engineer, you know, one from Switzerland, one from 
Italy, two from England and one from Germany. And he has built 
facilities literally in just about every country that has one 
of these facilities, he has been there.
    What are some of the systems in other countries that would 
be worthy of emulation or further study to see how they are 
doing it in a way that is productive for their country? And I 
throw that out to you and then a follow-up to anyone else. So 
Mr. Garfield.
    Mr. Garfield. What you describe is exactly what we hear 
from our companies all the time. There is a website that is 
popular in our community that has over 80--almost 85,000 open 
jobs right now, and so it speaks to the issue.
    Most of our international competitors are not only adopting 
programs like I-Squared, which is before you now, or the 
startup visa program like Canada recently did, but they are 
actually taking steps to go out and recruit talent like many of 
our sports teams do. So then rather than leaving it simply to 
serendipity, they are going to other markets and looking for 
talent and working to bring them to their country.
    And so for us, I think a great starting point is moving I-
Squared and the startup visa 3.0, but also looking at ways that 
we can use our other agencies to go out and attract talent.
    Mr. Holding. If any other panelist would like to follow up 
on that?
    Mr. Johnson. Well, I think there has been a lot of talk 
about other countries that are, you know, actively engaged in 
global competition for talent, that is certainly true, but 
other countries also recognize that it is the entire 
immigration system that needs to work.
    I mean, I think we have got some serious problems when it 
comes to family members of certain visa holders that aren't 
allowed to be employed in the United States. That is a real 
challenge in terms of attracting talent to our shores. Other 
countries don't tolerate a situation where once somebody is 
here in the United States, they have to wait 5 to 7 years to be 
able to petition for another family member.
    So I think as a whole, we need to do what other countries 
are doing, using our immigration system as a tool for 
recruitment, thinking about it as a kind of resource management 
rather than only thinking about it from an enforcement 
perspective, you know, how do we keep people out, instead of 
how do we attract people through an effective system.
    Mr. Holding. Only in exclusionary terms.
    Mr. Johnson. Right.
    Mr. Holding. Thank you. Mr. Chairman, I yield back.
    Mr. Gowdy. Thank you to the gentleman from North Carolina.
    The Chair will now recognize the gentleman from Illinois, 
Mr. Gutierrez.
    Mr. Gutierrez. Thank you very much. First of all, I would 
like to thank you, Chairman Gowdy, because once again I think 
this panel is indicative of your leadership and your desire and 
the desire of this Committee to resolve this issue. I say that 
because in each and every instance, each and every panelist is 
contributing in a meaningful way, and not that you are all 
identical, but you are all meaningfully contributing to 
resolving the problem. And we can take from each and every one 
of you information and ideas that we can include in resolving 
the issue.
    I have to say that unfortunately that has not always been 
the case, and just so that we are clear, when we were in 
charge, it wasn't always the case. That is to say, our side 
most of the time, and I think it is worth repeating, if the 
majority put up three witnesses, I would have absolutely 
nothing in common with them and I would probably avoid and not 
listen, and maybe sometimes to my detriment and to the 
detriment of the Nation.
    I would say, however, that I know that people want to keep 
having conversations about the past and the inability to get to 
a solution in the past, but I would say that there was an 
election and that if there was a big winner in this election, 
it was the STEM industry, and yet it wasn't people in the STEM 
industry that caused that victory for you. It was a victory 
that came from millions upon millions of people in States like 
Colorado and New Mexico and Florida and Arizona and, yes, 
Nevada, who came out and said, we want to fix this issue once 
and for all, and said, we want comprehensive immigration 
reform, and that includes the STEM industry.
    And I just want to say that some of the ideas I hope that 
we will take a look at are ideas that were fostered by the 
Ranking Member of this Committee, Zoe Lofgren. I and others 
proposed legislation that would give up to 50,000 STEM visas. 
And in our program, there was complete portability; moreover, 
you got to bring your wife and your children with you right 
away. Those are the kinds of green cards.
    Now, I want to make sure that everybody understands that as 
we move forward, it is really not about keeping one person 
hostage to the other. It is really about doing the greatest 
good for the greatest number of people, and that you are part 
of an immigrant family. It was almost as you want to say, oh, 
well, save your thumb and to hell with the rest of your hand. 
No. I say save the hand. And that hand is important in the 
functioning, not only of my body, right, but in the functioning 
of the economy of the United States of America.
    And we spend, I think, too much time stressing what my mom 
and dad didn't have when they came to the United States of 
America. And they came as migrants to this country, they never 
graduated from high school. I don't think they did very poorly. 
I think they did very well. They worked hard, they saved their 
money, they sent their kids to college and they contributed to 
the United States of America.
    And I would like to thank Chairman Gowdy, because he has 
really given us, you have really given us a sense and a flavor 
for the agricultural community that you put such an excellent 
panel together. And it was interesting. I mean, the millions 
and millions of people that wake up each and every day to go 
and work our fields, there is honor and there is dignity, and 
we should respect that honor and the dignity that their work 
provides us, because they provide an invaluable service.
    And I am just going to say, I don't want my children 
working those fields. And I don't think any of us send our kids 
thinking of one day picking peaches or lettuce or tomatoes or 
grapes or any of the fields in this country. That is hard, back 
breaking work, but somebody has got to do it, and they should 
also be afforded the opportunity.
    So I would like to thank especially Mr. Johnson, because I 
read you and I, right, we are pretty much in sync, so thank you 
so much.
    I don't want to take any more time. I just want to say 
lastly, we are in it together. And understand, I am somebody 
who is going to practice the greatest good for the greatest 
number of people. Your industry is in. Please, could you help 
us so that other sectors of our society can also be in, too use 
the incredible, how would I say, importance that you have, and 
credibility that you have on this issue to help others along 
the way. Hmm?
    You know, love God above everything else, but love your 
neighbor as you love yourself. And I will tell you something, 
those other immigrants that work the fields, that wash cars and 
dishes and floors and do so much of the work in this country, 
they are your neighbors, too, and then we can all be successful 
together.
    Thank you so much for the wonderful testimony you have all 
provided.
    Mr. Gowdy. Thank the gentleman from Illinois.
    The Chair will now recognize the gentleman from Idaho, Mr. 
Labrador.
    Mr. Labrador. Thank you, Mr. Chairman, and thank you for 
putting this panel together. Thank you for the work you are 
doing and thank you to all the Members for their thoughtful 
questions.
    Mr. Morrison, sometimes I think we make the mistake of 
assuming that our audience understands what we are talking 
about when we are talking about immigration and they understand 
the process. I have a really simple question. Can you just walk 
us through why people are not directly getting their green 
cards right now? I don't think--if anybody is watching this 
today, they don't understand why if you have an advanced degree 
and you have a job that is available to you, why you are not 
getting your green card right away. Can you explain that for 
us?
    Mr. Morrison. Yeah. There really are two sources of delay 
in the system. One is that the number of visas is not 
sufficient, so we create a waiting list and a backlog. And at 
the moment that backlog stretches up to 10 years for some 
people in employment-based categories.
    Mr. Labrador. So I just want to be clear. I am a person 
with an advanced degree from a country like China or India, I 
have a job that is available to me, and in order for me to get 
a green card right now, I have to wait up to 10 or more years? 
Is that right?
    Ms. Lofgren. Would the gentleman yield?
    Mr. Labrador. Yes.
    Ms. Lofgren. I would just like to add in that for India, 
Bachelor of Science graduates, the recent study shows it is a 
70-year wait, seven zero. Thank you for yielding.
    Mr. Labrador. Thank you.
    Mr. Morrison. So that is one source of delay, but the other 
source of delay----
    Mr. Labrador. Before you get to the other source, can you 
explain how a country like Canada deals with that?
    Mr. Morrison. Well, it depends on whether it is an advanced 
degree category or not. Canada right now has immediate 
availability for master's and above, but for bachelor's 
degrees, it also waits for about 6 to 7 years.
    Mr. Labrador. So for a master's degree or above, in Canada 
they get immediate availability.
    Mr. Morrison. You mean--you mean in the United States?
    Mr. Labrador. No. In Canada it is----
    Mr. Morrison. Oh, I am sorry. That is----
    Mr. Labrador [continuing]. Immediate availability. In the 
United States, it is at--it is about 10 years, 6 to 10 years.
    Mr. Morrison. I answered the wrong question.
    Mr. Labrador. Okay.
    Mr. Morrison. I thought you were saying from Canada as 
contrasted from----
    Mr. Labrador. No. I apologize.
    Mr. Morrison [continuing]. Other countries.
    Mr. Labrador. So in Canada, so if I were an immigrant 
trying to go to Canada, how would that----
    Mr. Morrison. Canada doesn't keep waiting lists. They have 
a system by which you apply, you get landed immigrant status or 
you don't, and if you are turned down, you can apply again, but 
you don't get on a waiting list. So they don't keep waiting 
lists. And that source of delay doesn't exist explicitly, but 
not everybody gets in that first application, so there can be 
delays in time, but it is usually not as long as ours. But 
Canada has a system much more like ours in terms of giving 
landed immigrant status rather than a temporary program.
    Mr. Labrador. Okay. Sorry. And you were saying there was a 
second----
    Mr. Morrison. The other source of delay is processing, and 
processing has two parts: one is labor certification, 
demonstrating that the person is needed and an American isn't 
available, and the other is processing just to do the 
paperwork. And those two things together can sometimes take 
months, but oftentimes have taken years. And unless you fix 
that, employers can't get the person they need in a timely 
fashion. So you can't focus on one or the other, but it is the 
long delays that tie people up.
    Mr. Johnson is correct when he says that H1B's are fully 
portable, but most people on H1B's want green cards, and so it 
is not fully portable, because whoever it is that is going to 
file for the green card, you are stuck with that employer until 
you get the green card, and that can go on for as much as a 
decade.
    So you need to get rid of the backlogs by having enough 
visas, and you need to get the processing expeditious. And you 
can wed together the idea of fees to support the education of 
Americans and creating a market mechanism instead of labor 
certification. In other words, if you charge----
    Mr. Labrador. Okay. Okay. Mr. Garfield, do you think that 
this delay, this process that we have is hurting us, our 
competitiveness in the United States? And number two, do you 
think it is preventing the emergence of the next Google or the 
next Facebook or the next big company?
    Mr. Garfield. It certain--I think yes on both counts. It 
certainly could. I couldn't resist noting that the use of the 
very technologies that this country is creating can help us 
across all of those fronts to the extent that we integrate that 
into the work that we are doing.
    But the thing that has happened over the last 20 years 
since we last comprehensively dealt with our immigration system 
or dealt with it in any real meaningful way is that people have 
become and human capital has become as portable as capital 
generally, and so people are moving all around the world.
    I was recently in China and talking to educators there, and 
they made the point that the United States is still very 
attractive for its university system, but increasingly folks 
who are going to school in the United States are coming back, 
because it is just easier to come back and build their business 
here as opposed to staying in the United States, which is not 
what we want.
    Mr. Labrador. And by ``here,'' you mean China, right?
    Mr. Garfield. Correct. Correct.
    Mr. Labrador. Okay. Thank you very much. I yield.
    Mr. Gowdy. Thank the gentleman from Idaho.
    The Chair will now recognize the gentleman from Texas, 
Judge Poe.
    Mr. Poe. Thank you, Mr. Chairman. Thank you, gentlemen.
    Immigration reform has been talked about all my life; I am 
sure all of your lives, too. We are dealing with a system that 
is not broken. It is a disaster. All across the board, there 
are problems in our immigration model. We have the 
responsibility to start fixin' them. That is a word, fixin'. 
And we probably need to start someplace.
    I personally think we ought to zero in on workers, 
verifiable worker program in the U.S. And expand it to other 
areas. That is my personal belief. So I appreciate what you 
have talked about.
    One concern I have, though, is something that we can 
control. In the United States in our education system, it seems 
to me the system doesn't promote the education of Americans in 
these areas of high-skilled labor, so companies look somewhere 
else. We have to fix that problem as well. The jobs are there. 
Companies can't hire Americans, because they are not qualified, 
and they are not qualified because the education system doesn't 
educate them to take those jobs.
    First question: What does the industry do to move us in a 
direction to have high school students, college students move 
into these high-skilled labor jobs rather than go do something 
else?
    Mr. Garfield.
    Mr. Garfield. Thank you for the question. So there are a 
couple of different layers to it: one is to--and a lot of 
resources are being spent on studying how do you get students 
better prepared coming out of high school and college. And part 
of it is access, you know, knowing about the opportunities that 
exist. Part of it is preparing teachers, so to make sure that 
teachers are proficient in these areas as well. And----
    Mr. Poe. What is the industry doing?
    Mr. Garfield. What we are doing is actually addressing it 
across all fronts. So 4 years ago, we helped to, in partnership 
with this Administration, create an organization called Change 
the Equation, which is focused on addressing it at K through 
12.
    There are companies like Microsoft, IBM, Adobe, Cognizant, 
I can name a long list, that have programs directed at 
addressing it across the country. And so we are doing a lot. 
There is certainly more that we can do.
    The point that Congresswoman Jackson Lee made about making 
sure that we have more diversity in these programs is a good 
one that we take to heart. And so we are spending billions of 
dollars trying to deal with it in a systematic and strategic 
way, but initiatives like I-2 give us an opportunity to deal 
with it across the country as well.
    Mr. Poe. The comment that was made by several of you that 
we bring foreign students over here, they are educated in our 
schools, they are hired by your industries, then they go home 
and they compete against us, that kind of irritates me. You 
know, we educate them, they work for you, they can't stay, they 
go home, then they compete in China against American companies. 
That is an issue that I think needs to be addressed as well.
    Mr. Kamra, you have been quiet. I want to deal in 
specifics. Let us get down to the nuts and bolts. Give me three 
suggestions, ideas that you see we can do, Congress can do, to 
make the system work better; specific ideas, not rhetoric.
    Mr. Kamra. I think I tried to be pretty specific with my 
comments on the startup visa. That is one thing, and it is not 
specifically STEM, it could be any kind of startup. If an 
entrepreneur, an immigrant entrepreneur can come over without 
any sort of visa, it doesn't have to be in country, it doesn't 
have to be an H-1B, has an idea that he can get funded by an 
American investor to a certain amount of money, whatever that 
money is I am not really here to say, and can hire a certain 
number of employees for a certain number of times, he should be 
allowed do that. And to the extent he can create employment, 
that is great.
    And there are tests to measure that on an ongoing basis to 
make sure those employees are real and that the company is 
progressing.
    Certainly we have heard about, as is often said, stapling a 
green card to the diplomas of STEM graduates from overseas. You 
mentioned that. That is a very specific thing.
    Again, the details, I am not qualified to talk about, but 
those are a couple of things that the venture capital community 
would be very interested in seeing happen.
    Mr. Poe. Thank you. I yield back the rest of my time, Mr. 
Chairman.
    Mr. Gowdy. Thank you, Judge Poe.
    I will now recognize myself. They say the last shall be 
first, so I decided to test that theory and go last.
    I do want to thank all of my colleagues. The attendance on 
the Subcommittee has been phenomenal. I know Judge Poe and Mr. 
Gutierrez and Ms. Jackson Lee and Ms. Lofgren and others have 
other commitments, so thanks to everyone for coming.
    And my colleagues are what I consider to be highly skilled 
in this area, whereas I was kind of a small town prosecutor, 
but I want to ask my questions from that perspective, from 
folks who are watching perhaps the immigration discussion for 
the first time. And I want to ask a couple of questions, and I 
want to recognize each of you, but if you could give me kind of 
quick responses, that would be great.
    Last week we had a hearing that focused on agriculture, and 
one of the things we wanted to address was the argument that 
agricultural workers are displacing American workers, and the 
farmers sought to do that anecdotally and otherwise. That same 
argument is made in this realm, that immigrants will displace 
American workers. Give me your single best piece of evidence to 
either impeach or advance that notion.
    We will start with you, Mr. Morrison.
    Mr. Morrison. There is no reason there should be 
displacement, but there can be displacement in the current 
system. The existence of a visa which is temporary and which is 
tied to a specific employer creates an incentive to select a 
foreign born individual over an American. We need to remove 
that incentive.
    Mr. Gowdy. Mr. Garfield.
    Mr. Garfield. I think the best data against it is that the 
entire H-1B program is less than one-tenth of 1 percent of our 
non-foreign field employment in this country, which would 
suggest it is pretty small.
    I certainly think, as I said earlier, that there are things 
that we can do to improve the H-1B program to ensure there is 
no displacement, and we are happy to talk and work with this 
entire Committee to find those solutions.
    Mr. Gowdy. Mr. Kamra.
    Mr. Kamra. As it relates to startups, entrepreneurs create 
more jobs than just themselves. The numbers are very clear. 
Every startup creates jobs. They are not displacing U.S. 
workers, they are hiring them.
    Mr. Gowdy. Mr. Johnson.
    Mr. Johnson. I mean, I think the evidence is--you know, I 
look at the demographic trends and realities. We just have a 
lot more Americans, native born folks in the labor force in the 
middle of our skill sections, not at the top and the bottom, 
and that is where we see a high number of immigrants, at the 
low end of the education spectrum and the high end of the 
education spectrum.
    To me that is an indication that the system is generally 
working in terms of attracting immigrants to fill gaps in our 
labor market. Lots more details to that, but, you know, at the 
60,000-foot level, the fact that these worker profiles match 
each other is one of the strongest evidence, I think, of 
complementary nature.
    Mr. Gowdy. Those that are just beginning to follow this 
discussion for the first time will hear something referred to 
as the point system that other countries may have. Give me a 
relative merit or demerit of point systems as quickly as you 
can, and I will get all four. We will start with you, Mr. 
Johnson.
    Mr. Johnson. So I think the point system is challenged by 
two realities. Number one, I think that our ability to identify 
and assign value to workers based on future needs hasn't proven 
to be very effective. And number two, I think in general the 
idea of, you know, identifying and welcoming talent into the 
labor force is a good thing, but we have to be more sure, have 
to have some assurance that those folks are landing in the 
labor market at the right place.
    Canada has a real problem with the fact that they have got 
a lot of really talented people, but they are not in the 
occupations where their talent exists.
    So being able to match people in your labor market is as 
important as being able to identifying them. And making sure 
that we respect families in the point system is, I think, 
incredibly important.
    Mr. Gowdy. Mr. Kamra.
    Mr. Kamra. I don't really have a comment on the point 
system. Sorry.
    Mr. Gowdy. Mr. Garfield.
    Mr. Garfield. One of the challenges we have identified 
throughout this hearing is bureaucracy, and I think a point 
system will bring bureaucracy to an already complicated and 
broken process, and so we would certainly not support that.
    Mr. Gowdy. Mr. Morrison, I will get you to go quickly, 
because I am going to ask one more question before the red 
light comes on.
    Mr. Morrison. Yes. Our immigration system is a uniquely 
American way of doing it. Americans choose the next Americans, 
whether it is employers choosing the people who are most 
appropriate to work for them or families who choose their 
members, and that is superior to any government agency trying 
to score who those people are or who is best.
    Mr. Gowdy. Alright. In conclusion, I have a friend back 
home who is a reporter, he probably would not want me to say he 
is a friend, but he had to camp out for several days so his 
child could go to a public school that focuses on math and 
science and engineering, literally camped out in a car for 3 
days so he could get in line for his child.
    What would you say to parents or others who are watching, 
what can we do to incentivize our young people? I have two 
children. My son's a philosophy major. I think he wants to work 
in the fast food industry. That is all I can think of that he 
can do with that, but, you know, he also did okay in physics in 
high school, so why did he pick, you know, Wichenstein over 
physics, I don't know.
    What can we do for our own students? And just give me a 
couple things, and then I will recognize some of my colleagues 
as we close. You start, Mr. Morrison.
    Mr. Morrison. First, I think more investment in our 
education system to enrich the training that those people get, 
but secondly, to make sure that we don't have a system of 
employment that discourages people with the amount of time it 
is going to take for them, the Americans, to get the kind of 
opportunities they need that they would be competing along the 
way with people who don't have the same opportunities as they 
do.
    So the fair competition at the job stage transfers back to 
what people--Americans are very smart about where it is going 
to lead, and if they get negative signals there, they will read 
those and they will not go into those fields.
    Mr. Gowdy. Mr. Garfield.
    Mr. Garfield. One thing I would add is the tangible 
connection between STEM and success. And so the story is often 
told that in many other countries, the challenge we have is 
that in America, Brittney Spears is Brittney Spears, but in 
other markets, Steve Jobs is Brittney Spears. And to the extent 
that we can elevate industries, jobs that require those sorts 
of proficiencies as a cultural matter, I think we help 
ourselves.
    Mr. Gowdy. Mr. Kamra.
    Mr. Kamra. Since I am from the technology industry, my 
answer has to do with technology. There is an easy way to learn 
online now. There are a number of companies, Corte Sierra, Kahn 
Academy, at all levels taught by professors, qualified 
teachers, teaching literally hundreds if not thousands of 
courses that are accessible to everybody, and mostly at no 
charge. And some of these also provide certificates and 
degrees. That is a great way, I think, for people to learn 
without standing in line.
    Mr. Gowdy. Mr. Johnson.
    Mr. Johnson. So I think we can encourage and continue to 
incentivize businesss that are spending billions of dollars and 
finding creative ways to do this to continue to do that. And 
then I would agree with Mr. Garfield. We need to celebrate the 
Mr. Kamras of the world and lift them up as examples for our 
kids.
    Mr. Gowdy. Thank you. I apologize for going over. I will 
now recognize the gentlelady from Texas, who wanted to make a 
brief conclusory--or concluding remark.
    Ms. Jackson Lee. Mr. Chairman, thank you very much. Just a 
clarification to make sure everyone understood that I am 
complimentary of both the Chairman and the Ranking Member for 
creating the basis of thousands of pages of positive testimony 
as we, hopefully, move forward to comprehensive immigration 
reform, which part of this is included.
    I just want to extend my hand to my fellow colleagues and 
to all of you that some of the questions that you asked, Mr. 
Chairman, on how do we reach our young people, how do we build 
a base of American workers to complement those who receive the 
H-1B visas, ultimately green cards. And that will be the 
question that I will ask the gentlemen if they can expand in 
writing about real partnerships in educating American young 
people. And my focus was historically Black colleges and 
Hispanic serving colleagues, the Prairie View A&M's, the 
Florida A&M's, the Texas Southern University.
    Lastly, I conclude on this question that if you would 
answer in writing as well, because we are here trying to bring 
people together, and the question is, as we move forward to 
have comprehensive immigration reform, bringing in high skilled 
workers and others in that component, is it necessary that we 
should reduce the number of family visas and diversity visas as 
a substitute or to in essence substitute H-1B visas? Do we deny 
those individuals access, families, those who come under the 
diversity visa process, is that a necessity in order to get to 
H-1B? I know that many of you will say Congress sets the 
numbers, but diversity visas has a particular focus. And I 
would appreciate, Mr. Chairman, if I could get those answers in 
writing.
    And I thank the Chairman for yielding on what I think has 
been a very important hearing. And I thank you, gentlemen, very 
much. Look forward to working with you. I yield back.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              


    Mr. Gowdy. I thank the gentlelady from Texas.
    The Chair will now recognize the gentlelady from California 
for any concluding remarks that she would like to make.
    Ms. Lofgren. Thank you, Mr. Chairman. I will be brief. I 
think this panel has been terrific, and I want to thank each 
one of you for what you have added, enriching our understanding 
of not the challenge, but the opportunity that we have here to 
make our country even greater by making immigrants more welcome 
than they have been.
    As I was listening to Ms. Jackson Lee, I was thinking about 
the startup world. And sometimes it is people with Ph.D.'s, but 
sometimes it isn't. And I was thinking about Steve Wozniak and 
Steve Jobs, both--they were not college graduates when they 
started. As a matter of fact, Steve Wozniak went under a 
pseudonym to University of California Berkeley because his 
mother, Margaret Wozniak, who was a wonderful woman, he wanted 
to please his mother and get his bachelor's degree. This was 
after Apple was a huge success.
    So we need to have the opportunity for entrepreneurs to 
start businesses, we need to capture the smart people who are 
geniuses, we need to pump up our economy. And it is not in 
opposition to making it more viable for Americans to also be 
achieving in the sciences and technology. These are not either/
or. We need to do both.
    And I think that given the testimony today and the comments 
from my colleagues, I have an increased sense of optimism that 
the Congress is going to come together and come up with 
sensible approaches that solve the whole challenge that we face 
in a way that works for America. So thank you, Mr. Chairman, 
for your leadership in holding this hearing, and I yield back.
    Mr. Gowdy. Thank you, gentlelady from California.
    On behalf of all of us, we want to thank our panel. Your 
expertise and acumen is manifest, but I especially am grateful 
to you for your collegiality toward one another and with this 
Subcommittee.
    With that, we are adjourned. And thank you again.
    [Whereupon, at 11:44 a.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 Prepared Statement of the Honorable Zoe Lofgren, a Representative in 
Congress from the State of California, and Ranking Member, Subcommittee 
                   on Immigration and Border Security
    Every Member of this Committee agrees that America is the greatest 
country on Earth. We must attribute this success to our unparalleled 
freedoms and abundant natural resources. But there is one other 
critical factor that cannot be forgotten--immigration.
    That the U.S. is the strongest economic and military power on Earth 
is no accident. It was earned by opening our arms to the world's 
political and intellectual refugees; by giving them the freedom to take 
risks and own their own accomplishments, and by fostering a national 
identity that welcomes strangers to become as American as the rest of 
us.
    For years, we have been on the winning side of the global ``brain 
drain.''
    But today, we find ourselves on the other side of the drain.
    We used to invite the brightest minds in the world to come, make 
this their home, and become Americans with us. Now we turn them away.
    We turn away advanced degree graduates in STEM from our best 
universities. We turn away entrepreneurs who want to start businesses 
and create jobs for our constituents. We turn away medical 
professionals willing to fill gaps in health care shortage areas.
    Rather than harness their potential as our country has done for 
over two centuries, we now tell these people they are not welcome. 
Worse yet, in this increasingly global economy, we tell them to go home 
and compete against us from overseas.
    The result has been a reverse brain drain. And it is not good for 
our country.
    Immigrant students and entrepreneurs have had a profound impact on 
the U.S. economy and job creation in America.

    <bullet>  Immigrants were responsible for one quarter of all 
engineering and technology startups created in the U.S. between 1995 
and 2005. The vast majority of these immigrants had advanced STEM 
degrees, mainly from U.S. universities.

    <bullet>  More than half of startups in Silicon Valley had 
immigrant founders.

    <bullet>  Immigrants were named as inventors or co-inventors in one 
quarter of international patent applications filed from the U.S. in 
2006.

    <bullet>  Due partly to immigration, our country--with just 5% of 
the world's population--employs nearly \1/3\ of the world's scientific 
and engineering researchers, accounts for 40% of all R&D spending, and 
publishes 35% of all science and engineering articles.

    <bullet>  This leadership in science and technology, according to 
the National Academies, has translated into rising standards of living 
for all Americans, with technology improvements accounting for up to 
half of GDP growth and at least \2/3\ of productivity growth since 
1946.

    <bullet>  This is because, according to the Academies, ``while only 
four percent of the nation's work force is composed of scientists and 
engineers, this group disproportionately creates jobs for the other 96 
percent.''

    A recent report by the Partnership for a New American Economy, a 
bipartisan group of businesses founded by New York City Mayor Michael 
Bloomberg and News Corporation CEO Rupert Murdoch, found that more than 
40% of Fortune 500 companies were founded by immigrants or their 
children. These companies currently generate a staggering $4.2 trillion 
in revenues each year.
    All of these statistics make it clear we must find a way to keep 
more of these minds in America. In 2005, at the request of Congress, 
the National Academies issued a very sobering report on the country's 
eroding economic leadership in science and technology. The Academies 
reviewed trends across the globe and found that, due in part to 
restrictive immigration policies, ``the scientific and technological 
building blocks critical to our economic leadership are eroding at a 
time when many other nations are gathering strength.''
    According to the report: ``Although many people assume that the 
United States will always be a world leader in science and technology, 
this may not continue to be the case inasmuch as great minds and ideas 
exist throughout the world. We fear the abruptness with which a lead in 
science and technology can be lost--and the difficulty of recovering a 
lead once lost, if indeed it can be regained at all.''
    America's greatest advantage in the global economy is our unique 
ability to innovate and incubate new ideas and technologies. This 
history of innovation was built both by harnessing native-born, 
homegrown talent and fostering and welcoming the best and brightest 
immigrants from around the world.
    While we focus on the need to welcome those earning graduate 
degrees in STEM fields from America's greatest universities, it's 
important to remember that many or our tech innovators did not receive 
their immigration status based on their degrees but because they were 
family based immigrants or refugees. Think Google, Yahoo, Intel.
    We need to reform our broken immigration system. We can do it all.

                                <F-dash>

Prepared Statement of the Honorable Bob Goodlatte, a Representative in 
  Congress from the State of Virginia, and Chairman, Committee on the 
                               Judiciary
    The contributions of highly-skilled and educated immigrants to the 
United States are well-documented. Seventy-six percent of the patents 
awarded to our top patent-producing universities had at least one 
foreign-born inventor. According to a recent report, these foreign-born 
inventors ``played especially large roles in cutting edge fields like 
semiconductor device manufacturing, information technology, pulse or 
digital communications, pharmaceutical drugs or drug compounds and 
optics.''
    A study by the American Enterprise Institute and the Partnership 
for a New American Economy found that an additional 100 immigrants with 
advanced STEM degrees from U.S. universities is associated with an 
additional 262 jobs for natives. The study also found that immigrants 
with advanced degrees pay over $22,000 a year in taxes yet their 
families receive less than $2,300 in government benefits.
    The United States has the most generous legal immigration system in 
the world--providing permanent residence to over a million immigrants a 
year. Yet, how many of those immigrants do we select on the basis of 
the education and skills they can bring to America? Only 12%--barely 
more than one out of 10--and that is including the immigrants' family 
members.
    Given the outstanding track record of immigrants in founding some 
of our most successful companies, how many immigrants do we select on 
the basis of their entrepreneurial talents? Less than 1%--and that is 
only if they already have the hundreds of thousands of dollars needed 
to participate in the investor visa program.
    Does any of this make sense, given the intense international 
economic competition that America faces? Does any of this make sense, 
given that many talented foreign graduates of our best universities are 
giving up hope of getting a green card and are packing up and moving 
home to work for our competitors? Does any of this make sense, given 
that Indian nationals with advanced degrees sought out by American 
industry have to wait over eight years for a green card? Does any of 
this make sense, given that Australia, the United Kingdom and Canada 
each select over 60% of immigrants on the basis of skills and 
education? The answer is clearly not.
    It is as if we purposely add weights to handicap our horse in order 
to give our competitors a better shot at the winner's circle. This just 
doesn't make sense as national economic policy.
    The House of Representatives acted last year to rechart our course. 
We voted by over a hundred vote margin to pass legislation by former 
Chairman Smith that redirected 50,000 or so green cards a year from 
winners of the diversity visa lottery toward foreign students 
graduating from our universities with advanced degrees in STEM fields. 
That bill would have made all Americans winners. Unfortunately, at the 
direction of the White House, the bill died in the Senate.
    In this new Congress, we can rechart our nation's course anew. We 
should look at all aspects of high-skilled immigration policy. We can 
look for ways to improve our temporary visa programs for skilled 
workers--such as H-1B and L visas. We can look for ways to improve our 
temporary visa program for entrepreneurs--the E-2 program. We can look 
for ways to offer green cards to aspiring entrepreneurs that don't 
demand that they themselves be rich but that instead rely on the 
judgment of the venture capitalists who have funded them. We can look 
for ways to reduce the backlogs for second and third preference 
employment-based green cards. And we can seek to help the United States 
retain more of the foreign students who graduate from our universities.
    Of course, at the same time, we need to ensure that whatever we do 
brightens rather than darkens the career prospects of American students 
and American workers. Even newly-minted PhDs are not immune to 
sometimes bleak employment prospects.
    But attracting the world's best and brightest is decidedly in the 
interests of all Americans. Just think of the incredible economic 
windfall that America experienced through the arrival of scientists 
fleeing Nazism in the 1930s and 1940s. This was one of the factors that 
enabled the post-war economic boom. Today, talented individuals have 
many options worldwide as to where to relocate. America needs to regain 
its place as the number one destination for the world's best and 
brightest. That should be our goal.

                                 <all>

</pre></body></html>
